No. 19-518
In the Supreme Court of the United States
____________
Colorado Department of State, Petitioner
v.
Micheal Baca et al., Respondents
____________
On Writ of Certiorari to the United States Court
of Appeals for the Tenth Circuit

____________
Brief of Amicus Curiae National Conference of
Commissioners on Uniform State Laws
Supporting Petitioner
____________
Peter F. Langrock
James Bopp, Jr.
111 South Pleasant Street
Counsel of Record
P.O. Drawer 351
Richard E. Coleson
Middlebury, VT 05753-0351 Melena S. Siebert
THE BOPP LAW FIRM, PC
Carl H. Lisman
The National Building
NCCUSL President
1 South Sixth Street
84 Pine St.
Terre Haute, IN 47807
Burlington, VT 05401
812/232-2434 telephone
Daniel Robbins
812/235-3685 facsimile
Chair, NCCUSL Exec. Comm.
15301 Ventura Blvd., Bldg E jboppjr@aol.com
Sherman Oaks, CA 91403
Susan Kelly Nichols
Chair, UFPEA Drafting Comm.

3217 Northampton St.
Raleigh, NC 27609
Cont’d on Inside Front Cover

Counsel for Amicus Curiae

Cont’d from Front Cover

Timothy J. Berg
Fennemore Craig, P.C.
2394 East Camelback Road
Ste. 600
Phoenix, AZ 85016
Of Counsel for Amicus Curiae

Question Presented
Amicus curiae National Conference of Commissioners on Uniform State Laws (“NCCUSL”), also known as
the Uniform Law Commission (“ULC”), addresses Petitioner’s (“Colorado’s”) second question presented:
Does Article II or the Twelfth Amendment forbid a State from requiring its presidential electors to follow the State’s popular vote when casting their Electoral College ballots?
Brief for Petitioner i (“Colo. Br.”).
Amicus ULC focuses on this question from the perspective of its Uniform Faithful Presidential Electors
Act (“UFPEA”). Colorado suggests that the UFPEA
could be jeopardized by the Tenth Circuit decision.
Colo. Br. 18-19; see also Colo. Pet. 35 (“throws into
doubt”). The ULC agrees and urges the Court to uphold
Colorado’s “faithless elector” statute as constitutional
under both Article II and the Twelfth Amendment.

(i)

Table of Contents
Question Presented . . . . . . . . . . . . . . . . . . . . . . . . . (i)
Table of Contents . . . . . . . . . . . . . . . . . . . . . . . . . . (ii)
Appendix Table of Contents. . . . . . . . . . . . . . . . . . (iii)
Table of Authorities . . . . . . . . . . . . . . . . . . . . . . . . (iv)
Interest of Amicus Curiae . . . . . . . . . . . . . . . . . . . . . 1
ULC History . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
ULC Structure . . . . . . . . . . . . . . . . . . . . . . . . . . .
ULC Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
The UFPEA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

1
1
2
4

Summary of the Argument . . . . . . . . . . . . . . . . . . . . 5
Argument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

The UFPEA Is a Remove-and-Replace Provision, Like Colorado’s. . . . . . . . . . . . . . . . . . . 6
A. The UFPEA Removes Faithless Electors
Before They “Cast” a Ballot. . . . . . . . . . . . 7
B. The UFPEA Has Been Adopted by States
and Successfully Functioned. . . . . . . . . . 11
C. Colorado’s Provision Is Similar to the
UFPEA, but Washington’s Previous Provision Differs. . . . . . . . . . . . . . . . . . . . . . . . 13

II.

The UFPEA Complies with Controlling
Federal Constitutional and Statutory Provisions and Precedent.. . . . . . . . . . . . . . . . . . 14

(ii)

III.

Important Principles of Individual Political
Empowerment and Federalism Favor the
Constitutionality of Colorado’s FaithlessElector Statute. . . . . . . . . . . . . . . . . . . . . . . . 23

Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

Appendix Table of Contents
Uniform Faithful Presidential Electors Act
with Prefatory Note and Comments . . . . . . . . . 1a

(iii)

Table of Authorities
Cases
Abdurrahman v. Dayton, 903 F.3d 813 (8th Cir.
2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Abdurrahman v. Dayton, No. 16-cv-4279
(PAM/HB), 2016 U.S. Dist. LEXIS 178222, (D.
Minn. Dec. 23, 2016) . . . . . . . . . . . . . . . . . . . . . . 12
Asarco, Inc. v. Idaho State Tax Comm’n, 458 U.S.
307 (1982) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Bush v. Gore, 531 U.S. 98 (2000) . . . . . . . . . . . . . . . 12
Cal. Democratic Party v. Jones, 530 U.S. 567 (2000)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Clingman v. Beaver, 544 U.S. 581 (2005) . . . . . . . . 22
Cousins v. Wigoda, 419 U.S. 477 (1975) . . . . . . . . . 22
Democratic Party of United States v. Wisconsin,
450 U.S. 107 (1981). . . . . . . . . . . . . . . . . . . . . . . 22
Flagg Bros., Inc. v. Brooks, 436 U.S. 149 (1978). . . . 4
Gamble v. United States, 139 S. Ct. 1960 (2019) . . 22
In re Guerra, 441 P.3d 807 (Wash. 2019) . . . . . . . . 14
Janus v. AFSCME, Council 31, 138 S. Ct. 2448
(2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
McDermott, Inc. v. Amclyde, 511 U.S. 202 (1994). . . 4
O’Brien v. Brown, 409 U.S. 1 (1972) . . . . . . . . . . . . 22
Oregon v. Mitchell, 400 U.S. 112 (1970) . . . . . . . . . 22
Payne v. Tennessee, 501 U.S. 808 (1991) . . . . . . . . . 21
Ponte v. Real, 471 U.S. 491 (1985). . . . . . . . . . . . . . . 4

(iv)

Ray v. Blair, 343 U.S. 214 (1952) . . . . . 12, 21-22, 24
Republican State Cent. Comm. v. Ripon Soc’y, 409
U.S. 1222 (1972) . . . . . . . . . . . . . . . . . . . . . . . . . 22
Thomas v. Cohen, 146 Misc. 836 (Sup. Ct. 1933) . . 25
Constitutions, Statutes, Regulations & Rules
3 U.S.C. Chapter 1 . . . . . . . . . . . . . . . . . 14-15, 20, 24
3 U.S.C. § 1 (1948) . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
3 U.S.C. § 6 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
24 Stat. 373 (1887) . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Colo. Rev. Stat. § 1-4-304 . . . . . . . . . . . . . . . . . . . . . 13
Mich. Comp. Laws Serv. § 168.47 (LexisNexis 2019)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Minn. Stat. § 208.40 . . . . . . . . . . . . . . . . . . . . . . . . . 12
N.C. Gen. Stat. § 163-212 (2019) . . . . . . . . . . . . . . . 11
Sup. Ct. R. 37 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
U.S. Const. amend. X . . . . . . . . . . . . . . . . . . . . . . . . 20
U.S. Const. amend. XII, § 1 . . (i), 14-15, 17, 20-22, 25
U.S. Const. art. II, § 1 . . . . . . . . (i), 14-15, 17, 20, 24
Utah Code Ann. § 20A-13-304(3) (LexisNexis 2019)
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Wash. Rev. Code § 29A.56.340 . . . . . . . . . . . . . . . . 13
Wash. Rev. Code §§ 29A.56.080-092 . . . . . . . . . . . . 11
Other Authorities
Robert Bennett, Taming the Electoral College (2006)
........................................ 4

(v)

The Federalist No. 10 (James Madison) . . . . . . . . . 25
Jesse O. Hale Jr., Reining In Renegade Presidential Electors: A Uniform State Approach, Baker
Ctr. J. of Applied Pub. Policy, 2010 . . . . . . . . . . 26
Patrick Henry, The Virginia Stamp Act Resolutions, House of Burgesses, May 30, 1765. . . . . . 24
Eric Manpearl, Securing U.S. Election Systems:
Designating U.S. Election Systems as Critical
Infrastructure and Instituting Election Security Reforms, 24 B.U. J. Sci. & Tech. L. 168
(2018). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Beverly J. Ross and William Josephson, The Electoral College and the Popular Vote, 12 J. L. &
Politics 665 (1996). . . . . . . . . . . . . . . . . . . . . 24-25
Robert A. Stein, Forming a More Perfect Union: A
History of the Uniform Law Commission
(2013). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Keith E. Whittington, Originalism, Constitutional
Construction, and the Problem of Faithless
Electors, 59 Ariz. L. Rev. 904 (2017) . . . . . . 25-26

(vi)

Interest of Amicus Curiae1
ULC History
In 1892, a group of distinguished lawyers established The State Boards of Commissioners for Promoting Uniformity of Law in the U.S. By 1905, the Commission had changed its name to the National Conference of Commissioners on Uniform State Laws
(“NCCUSL”) and adopted a constitution and bylaws.
Today, it is commonly called the “Uniform Law Commission” or “ULC.” Louis Brandeis, Wiley Rutledge,
William Rehnquist, and David Souter served as ULC
Commissioners and were later appointed to the U.S.
Supreme Court. Members of the ULC also include legal
luminaries Karl Llewellyn and William Prosser.
ULC Structure
The ULC is composed of approximately 425 Commissioners, representing each State, the District of
Columbia, the Commonwealth of Puerto Rico, and the
U.S. Virgin Islands. Each State determines the method
and number of Commissioners appointed, with state
officials, often the Governor, making appointments.
Some Commissioners are state legislators, but most
are practitioners, judges, or law professors—all are
licensed to practice law. Commissioners receive no
compensation for work with the ULC, volunteering
1

Rule 37 statement: All parties consented to filing this
brief; no counsel for any party authored it in whole or in
part; no party counsel or party made a monetary contribution intended to fund the preparation or submission of this
brief; and no person other than amicus or its counsel funded
it.

2

their time.2 The ULC receives most of its financial support from state appropriations, supplemented by publisher revenue and foundation and federal-government
grants.
The ULC’s purpose is to provide non-partisan, wellconceived, and well-drafted legislation that brings clarity and stability to critical areas of state statutory law.
The ULC strengthens federalism by recommending
state statutes and procedures that, if adopted, would
be consistent from state to state, but that also reflect
the diverse experience of the states. As Justice Sandra
Day O’Connor noted, “[t]he [ULC] plays an integral
role in both preserving our federal system of government and keeping it vital.” Robert A. Stein, Forming a
More Perfect Union: A History of the Uniform Law
Commission Foreword (2013).
ULC Process
The ULC offers a deliberative, intensive, and
uniquely open drafting process that not only draws on
the expertise of Commissioners, but also utilizes input
from legal experts, advisors, and observers representing the views of other legal organizations or interests
that will be subject to the proposed laws.
The ULC receives proposals for new acts from state
bars, state government entities, private groups, ULC
Commissioners, and private individuals. A proposal is
generally assigned to a Study Committee, which researches the topic and decides whether to recommend
2

When state law allows, some travel expenses that
Commissioners incur are reimbursed, including state reimbursement for annual-meeting attendance and reimbursement for costs associated with participation in the ULC
committee meetings.

3

drafting an act. The ULC’s Executive Committee typically reviews these recommendations. An approved
recommendation leads to the creation of a Drafting
Committee.
An expert in the relevant legal field is chosen as the
drafter (“Reporter”). Advisors from the American Bar
Association, as well as other interested stakeholders,
are invited to assist the Drafting Committee. Each
draft act normally receives a minimum of two years of
consideration,3 and all committee drafts are available
for review and comment by all ULC Commissioners.
The Committee of the Whole at the ULC’s annual
meeting debates draft acts from Drafting Committees.
Each must be considered section by section at no fewer
than two annual meetings.4 Thereafter, the states vote
on the act’s approval. Unless a rare exception is
granted, a majority of states present, and no fewer
than twenty states, must approve an act before it is
officially approved. Upon final approval, ULC Uniform
Acts are submitted to state legislatures for enactment.5
Many ULC acts have been widely adopted by states,
including the Uniform Commercial Code,6 Uniform
3

But see ULC Const. § 8.1(b) and (c) (allowing rarely
used waivers), available at https://www.uniformlaws.org/aboutULC/constitution.
4

But see supra note 3 (waivers).

5

ULC Commissioners have a duty to seek introduction/enactment of uniform acts in their states. ULC Const.
§ 6.1(6).
6

The UCC is a joint project with the American Law In(continued...)

4

Anatomical Gift Act, Uniform Trade Secrets Act, and
Uniform Interstate Family Support Act. This Court
has recognized the ULC’s influence over many areas of
law, including tax policy, tort law, and criminal law.
See, e.g., Asarco, Inc. v. Idaho State Tax Comm’n, 458
U.S. 307, 310 n.3 (1982); McDermott, Inc. v. Amclyde,
511 U.S. 202, 209 n.8 (1994); Ponte v. Real, 471 U.S.
491, 520 (1985).
The UFPEA
Presidential-Electors law is another area the ULC
has long sought to influence because of its foundation
in state law and importance to the nation. In 1893, the
ULC established a committee on the Uniformity of
State Action in Appointing Presidential Electors after
a federal law requiring states to provide for “ascertainment” of electors was enacted. 24 Stat. 373 (1887) (repealed and replaced by 3 U.S.C. § 1 et seq. (1948).
The ULC’s interest in Presidential-Electors law was
cemented into a uniform law in 2010. Drafting began
on the UFPEA in 2009, with Robert Bennett7 serving
as the Act’s Reporter.8 Throughout 2009, multiple
6

(...continued)
stitute. This Court considered a constitutional challenge to
a provision of the UCC, in Flagg Bros., Inc. v. Brooks, 436
U.S. 149 (1978), upholding it.
7

Robert Bennett is the former dean of the Northwestern
University School of Law and the author of Taming the
Electoral College (2006).
8

Amicus’s counsel of record, James Bopp, Jr. (Indiana)
is a ULC Commissioner who served on the UFPEA’s Draft(continued...)

5

drafts as well as supporting legal memos and comments were considered, resulting in the 2010 Interim
Draft. After further review and comment at the 2010
annual meeting,9 the UFPEA was approved by a vote
of the States, forty-four in favor, one opposed, four abstaining, and four not voting.

Summary of the Argument
Faithless electors, who vote for a candidate other
than those for whom the popular electoral majority (or
plurality) assumed it was casting its votes, hold the
potential for serious damage to our democratic process.
Voters today are entirely reasonable in thinking they
are voting for the candidates whose names appear, either solely or predominantly, on the ballot—not for
little-known individuals named by the political parties
or candidates. The public outrage that would arise if a
faithless elector could determine the outcome of a presidential election would cause a constitutional crisis
that this Court would undoubtedly be asked to decide.
The ULC’s solution, the UFPEA, requires electors
to pledge to mark their ballots in compliance with the
8

(...continued)
ing Committee. Of Counsel to Amicus ULC are also prominent ULC Commissioners: Carl H. Lisman (Vermont) is its
President, Daniel Robbins (California) is Chairman of its
Executive Committee, Susan Kelly Nichols (North Carolina)
was the Drafting Committee’s Chair, and Peter F. Langrock
(Vermont) was its former Vice President and a ULC member for over fifty years.
9

This process complied with the ULC’s standard practice of considering an act for two annual meetings. See supra at 3.

6

voters’ wishes and removes and replaces electors
breaking that pledge before they cast their ballot. Several states have adopted the UFPEA, and a case in
Minnesota demonstrated its function. The UFPEA is
substantially similar to Colorado’s remove-and-replace
system, while Washington’s previous provision (in No.
19-465) differs by imposing a civil penalty for casting
a faithless ballot as the means of attempting to enforce
compliance.10 (Part I.)
The UFPEA complies with controlling constitutional provisions, statutory provisions, and this Court’s
precedent. It is a practical, elegant solution to the
problem. Given the similarity between Colorado’s law
and the UFPEA, the Tenth Circuit decision jeopardizes
the UFPEA and is inconsistent with controlling provisions and precedent. This Court should reverse the
Tenth Circuit’s decision and hold Colorado’s faithless
Presidential Elector statute constitutional. (Part II.)
Furthermore, the ULC supports a holding by this
Court that Colorado’s provision is constitutional in
light of the vital governmental and public interests at
stake. (Part III.)

Argument
I.
The UFPEA Is a Remove-and-Replace
Provision, Like Colorado’s.
Colorado earlier said the decision below “throws
into doubt the automatic-resignation provision in [the
UFPEA], promulgated by the [ULC] and enacted in six
states.” Colo. Pet. 35 (citing UFPEA § 7(c)). The ULC
10

In 2019, Washington replaced its after-the-fact, civil
penalty with the UFPEA.

7

agrees and discusses here (A) the UFPEA, (B) its application, and (C) how it compares to the faithless-elector
provisions of Colorado and Washington.
A. The UFPEA Removes Faithless Electors Before They “Cast” a Ballot.
The UFPEA with comments is appended.11 In the
Prefatory Note, the ULC identifies the problem and
includes a solution.
The ULC explains the problem that the realities of
the selection process have changed dramatically over
the years, so that how the Electoral College actually
functions could hardly have been imagined by those
who promulgated the constitutional provisions regarding it. The dissonance between formality and reality
has opened room for “faithless electors.” Faithless electors hold the potential for serious damage to our democratic processes, making advisable a uniform law to
minimize the dangers posed. ULC App. 6a-9a.12
Regarding the solution, the Prefatory Note shows
how the UFPEA resolves the problem. The UFPEA
requires a state-administered pledge of faithfulness
(§§ 4 and 6(c)), with the presentation13 of a ballot
11

Available at https://www.uniformlaws.org/acts/catalog/
current (search “Faithful Presidential Electors Act”).
12

For readability, some language from the UFPEA comments is used herein without quotation marks but with
citations.
13

Presenting a marked ballot is not “casting” a vote because “cast” is defined to require acceptance of a ballot compliant with the pledge. UFPEA § 2(1) (“cast” defined); § 7(b)
(continued...)

8

marked by the elector in violation of that pledge being
deemed a resignation from the office of elector (§ 7(c))
and the vacancy so created being filled by a substitute
elector taking a similar pledge (§ 6(b) and (c)). After a
full set of faithful elector votes is obtained, the UFPEA
provides that the official notification of the identity of
the state’s electors (“certificate of ascertainment,” see
3 U.S.C. § 6) be officially amended by the Governor, so
the state’s official list of electors contains the names of
only faithful electors (§ 8). ULC App. 7a-9a.
The applicable provisions of the UFPEA are set
forth next. Some sections are described. Critical ones
are stated in full.
Section 2, “Definitions,” defines “cast” as “accepted by the [Secretary of State] in accordance with
Section 7(b).” ULC App. 10a.14
Section 3 provides for “Designation of State’s
Electors.” It provides for political parties to designate
an “elector nominee” and an “alternate elector nominee.” “Except as otherwise provided in Sections 5
through 8, this state’s electors are the winning elector
nominees under the laws of this state.” Elected alternates are a convenient vehicle to facilitate filling elector vacancies, dealt with under Section 6. ULC App.
11-12a.
Section 4 mandates the “Pledge” by electors “to
serve and mark my ballots for President and Vice Pres13

(...continued)
(only compliant ballots are accepted and counted).
14

Brackets indicate where the proper state official is to
be inserted or optional text is provided. ULC App. 11a
(Comment).

9

ident for the nominees for those offices of the party
that nominated me.” ULC App. 13a-14a.15
Section 6 provides for “Presiding Officer; Elector Vacancy.” Section 6(a) provides that a designated
public official shall preside at the meeting of electors,
and Section 6(b) provides a means of filling vacancies
among electors. ULC App. 17a-19a.
Section 7 provides for “Elector Voting”:
(a) At the time designated for elector voting
and after all vacant positions have been filled
under Section 6, the [Secretary of State] shall
provide each elector with a presidential and a
vice-presidential ballot. The elector shall mark
the elector’s presidential and vice-presidential
ballots with the elector’s votes for the offices of
President and Vice President, respectively,
along with the elector’s signature and the elector’s legibly printed name.
(b) Except as otherwise provided by law of
this state other than this [act], each elector shall
present both completed ballots to the [Secretary
of State], who shall examine the ballots and accept as cast all ballots of electors whose votes
are consistent with their pledges executed under
Section 4 or 6(c). Except as otherwise provided
by law of this state other than this [act], the
[Secretary of State] may not accept and may not
count either an elector’s presidential or vicepresidential ballot if the elector has not marked
both ballots or has marked a ballot in violation
of the elector’s pledge.
15

Note the use of “mark” instead of “cast,” the distinction and significance of which is discussed herein.

10

(c) An elector who refuses to present a ballot,
presents an unmarked ballot, or presents a ballot marked in violation of the elector’s pledge
executed under Section 4 or 6(c) vacates the office of elector, creating a vacant position to be
filled under Section 6.
(d) The [Secretary of State] shall distribute
ballots to and collect ballots from a substitute
elector and repeat the process under this section
of examining ballots, declaring and filling vacant positions as required, and recording appropriately completed ballots from the substituted
electors, until all of this state’s electoral votes
have been cast and recorded.
ULC App. 20a-22a. This section describes the conditions under which the Secretary of State “accepts” ballots for purposes of the “cast” definition. Ballots not
accepted (for noncompliance with legal requirements
as to marking or pledge) are not “cast.” Electors proffering noncompliant, unaccepted ballots immediately—by action of law—“vacate[] the office of elector,
creating a vacant position to be filled under Section 6.”
ULC App. 21a-22a.16
16

In light of the foregoing, Colorado’s two references to
the UFPEA, Colo. Br. 2 and 19 n.6, are clarified as follows.
First, Colorado says the UFPEA “automatically creates
an elector vacancy if any elector attempts to cast a ballot
inconsistent with their pledge,” Colo. Br. 2 (emphasis
added). That description must be understood in light of the
definition of “cast” (§ 2) as “accepted by the [Secretary of
State] in accordance with Section 7(b)” (emphasis added)
and the permitted elector action as “present[ing] both com(continued...)

11

B. The UFPEA Has Been Adopted by States and
Successfully Functioned.
The UFPEA has been adopted in Washington,17 Indiana, Nebraska, Nevada, Montana, and Minnesota.18
16

(...continued)
pleted ballots to the [Secretary of State], who shall examine
the ballots and accept as cast all ballots of electors whose
votes are consistent with their pledges” (§ 7(b) (emphasis
added)). So Colorado’s use of “attempt[] to cast” is in a nontechnical sense, with the actual statutory language saying
electors only present, not cast, and casting only happens by
compliance with the pledge and rules upon inspection and
acceptance by the presiding state official.
Second, Colorado says “ballots are ‘cast’ only after a ‘full
set of faithful elector votes is obtained.’” Colo. Br. 19 n.6. To
be clear, compliant ballots are provided by electors and cast
by acceptance seriatim (§ 7(b)) “until all of this state’s electoral votes have been cast and recorded” (§ 7(d)). Then,
“[a]fter a full set of faithful elector votes is obtained,” the
presiding official amends the “certificate of ascertainment”
(if required) with the names of only faithful electors (§ 8).
17

In 2019, Washington adopted the UFPEA. See Wash.
Rev. Code §§ 29A.56.080-092. The provision at issue in the
Washington case (No. 19-465) has been replaced; the Washington Supreme Court reviewed the former statute.
18

See https://www.uniformlaws.org/committees/community-home?CommunityKey=6b56b4c1-5004-48a5-add20c410cce587d. Other states, while not adopting the UFPEA,
have adopted statutes providing that an elector’s faithlessness constitutes resignation from the office of elector, with
the vacancy to be filled by a designated process. See, e.g.,
N.C. Gen. Stat. § 163-212 (2019) (also provides a fine for
(continued...)

12

In 2016, a Minnesota “faithless elector” challenged
that state’s adoption of the UFPEA. (Minn. Stat.
§ 208.40 et seq.). The elector had pledged to mark his
ballot for the Democratic nominees for President and
Vice President, if they won the popular vote. See Abdurrahman v. Dayton, No. 16-cv-4279 (PAM/HB), 2016
U.S. Dist. LEXIS 178222, at *2 (D. Minn. Dec. 23,
2016), aff’d on mootness grounds, 903 F.3d 813 (8th
Cir. 2019). When he presented a ballot in noncompliance with his pledge, the Secretary of State refused to
accept and count his ballot and appointed an alternate
to replace him, per the statute. Id.
The court found the faithless elector unlikely to
succeed on the merits and denied his requested preliminary injunction, reasoning that, under the Constitution and the arc of history, electors are not independent and not “left to the exercise of their own judgment.”
Id. at *11. Instead, the court said electors have “‘degenerated into mere agents,’” and these agents must be
faithful, lest they be “‘dangerous.’” Id. (quoting Ray v.
Blair, 343 U.S. 214, 230 n. 15 (1952) (internal citations
omitted)). The court emphasized that this Court has
reiterated that “‘[h]istory has now favored the voter’”
by allowing citizens, rather than legislators, to vote for
electors. Id. (quoting Bush v. Gore, 531 U.S. 98, 104
(2000)). The court’s initial constitutional analysis upheld Minnesota’s UFPEA and provides insight here.

18

(...continued)
faithless electors); Mich. Comp. Laws Serv. § 168.47 (LexisNexis 2019); Utah Code Ann. § 20A-13-304(3) (LexisNexis
2019).

13

C. Colorado’s Provision Is Similar to the UFPEA,
but Washington’s Previous Provision Differs.
The UFPEA operates by an automatic remove-andreplace system that functions before a vote is “cast,”
with “cast” meaning “accepted” as legally compliant.
Colorado’s remove-and-replace system, as interpreted by Colorado state courts, operates in a similar
manner to the UFPEA. See Colo. Br. 2. (Colo. Rev.
Stat. § 1-4-304). Under § 1-4-304(5), “[e]ach presidential elector shall vote for the presidential [and vicepresidential] candidate . . . who received the highest
number of votes at the preceding general election in
this state.” Under § 1-4-304(1), “refusal to act” requires
that “the presidential electors present shall immediately proceed to fill the vacancy.” The district court in
the Colorado case held that “[a] presidential elector’s
failure to comply with § 1-4-304(5)[] is a ‘refusal to act’
. . . and causes a vacancy” that “shall be immediately
filled.” Colo. Pet. App. 201-02. “Colorado’s courts have
interpreted ‘refusal to act’ to include an elector’s decision to cast a ballot for someone other than the presidential candidate who won the State’s popular vote.”
Colo. Pet. App. 2 (emphasis added; original emphasis
removed).
According to the facts alleged in the Colorado case,
when Mr. Baca’s decision to cast a noncompliant ballot
was revealed, he was removed and his noncompliant
ballot was not accepted and so was not cast. See Colo.
Br. 4.
The Washington provision in No. 19-465 provides
that: “Any elector who votes for a person or persons not
nominated by the party of which he or she is an elector
is subject to a civil penalty of up to one thousand dollars.” Wash. Rev. Code § 29A.56.340. The Washington

14

Supreme Court upheld that provision. In re Guerra,
441 P.3d 807 (Wash. 2019). Thus, the critical difference
between that Washington provision and Colorado’s
(and the UFPEA) is that the Washington provision
relies on the prospect of a civil penalty to attempt to
force compliance while Colorado (and the UFPEA) provides a pre-vote-replacement mechanism to ensure
compliance.
Holding that the Colorado provision is constitutional allows this Court to resolve that provision in
light of other removal-and-replacement systems, including the UFPEA. This Court’s rationale in the decision in the present case would not only govern the
Washington case, but would provide controlling precedent regarding the UFPEA as well.

II.
The UFPEA Complies with Controlling Federal
Constitutional and Statutory Provisions
and Precedent.
Of course, the UFPEA is subject to federal constitutional and statutory provisions. The UFPEA complies
with applicable federal law: the U.S. Constitution’s
Article II, § 1 and Twelfth Amendment and 3 U.S.C.
Chapter 1. Since Colorado’s provision operates similarly, it also complies with applicable federal law.
Article II, § 1 authorizes states to appoint their
electors “in such Manner as the Legislature thereof may
direct . . . .” (emphasis added). Colo. Br. 18. Thus, state
legislatures have a broad mandate to control the manner of appointing electors, i.e., who may be an elector
(e.g., by setting qualifications) and how individuals
become and be electors. For example, the legislature
itself might appoint electors, establishing its own qual-

15

ifications and applying its own procedural rules for
becoming and being an elector. That broad who-andhow authority remains if the legislature allows electors
to be chosen by election. This authority includes
whether to mention electors on ballots (and if so, how
prominently). If a state does not mention electors on
the ballot, it leads voters to believe they are voting directly for candidates. Then, the state has a strong interest in ensuring that the voters’ choice is followed,
and it may impose who-and-how measures to avoid
voters believing they have been defrauded.
The Twelfth Amendment mandates (inter alia) that
electors (i) vote by casting ballots and (ii) cast separate
ballots for President and Vice President. Colo. Br. 30.
The Twelfth Amendment does not vitiate the who-andhow “manner” authority over electors in Article II, § 1,
except to specify separate votes by ballot. Since the
manner of casting ballots is not specified, that is left to
state regulation as before—unless otherwise governed
by federal statute.
The provisions at 3 U.S.C. Chapter 1 (“Presidential
Elections and Vacancies”) generally codify constitutional provisions (with some added specifics) and recognize broad state “manner” authority:
• Section 1 requires appointment of electors on an
appointed day, but it provides no restriction on the
broad who-and-how “manner” authority of appointing electors under Article II, § 1, cl. 2—so the states
retain that broad, plenary authority (apart from the
limited requirements in Chapter 1 as to the day of
appointment and number of electors);
• Section 2 recognizes state authority to select a “subsequent day in such manner as the legislature of
such State may direct” (emphasis added) to appoint

16

electors if a state failed to do so on the appointed
day—so that the choice of that day is left to the
states’ “manner” authority;
• Section 4 recognizes state authority to “by law, provide for the filling of any vacancies which may occur in its college of electors when such college meets
to give its electoral vote” (emphasis added)—so vacancies are left to the states’ “manner” authority;
• Section 5 recognizes state authority to “provid[e] . . .
for . . . final determination of any controversy or contest concerning the appointment of . . . electors . . .
[which determination] shall be conclusive, and shall
govern the counting of the electoral votes . . . so far
as the ascertainment of the electors appointed by
such State is concerned” (emphasis added)—so
states retain their “manner” authority over controversies and contests about the who-and-how of electors’ appointment;
• Section 6 recognizes state authority to determine
and certify the “final ascertainment,” done “under
and in pursuance of the laws of such State providing
for such ascertainment” (emphasis added)19—so
states retain their who-and-how “manner” authority over the final determination and certification of
who is an elector;
19

The “certificate of ascertainment” certifies “the names
of such electors and the canvass or other ascertainment
under the laws of such State of the number of votes given or
cast for each person for whose appointment any and all
votes have been given or cast . . . .” Id. (emphasis added).
“[C]anvass or other ascertainment” refers to the number of
popular votes obtained by all elector candidates in the state.
ULC App. 15a (Comment).

17

• Section 7 requires electors to cast their ballots on
the appointed day “at such place in each State as
the legislature of such State shall direct”—so states
retain their authority over how electors vote that
was left to states by the Twelfth Amendment; and
• Section 8 requires that “[t]he electors shall vote for
President and Vice President, respectively, in the
manner directed by the Constitution”—so given the
lack of other restrictions imposed by statute, states
retain their authority over how electors vote (except
that there must be two votes by ballot).
This federal statute does not restrict the states’ generally broad authority under Article II, § 1 and the
Twelfth Amendment, other than appointing a day and
prescribing the number of electors. Congress understood states’ authority to be broad—over activities
ranging from elector selection to the manner of casting
ballots—and Congress affirmed that broad authority
by a statute authorizing particular state laws. Congress authorized states to enact laws to govern (i) who
is an authorized elector, (ii) how individuals may become and be electors, and (iii) how electoral ballots are
cast and counted. The necessity of the states regulating
the how of voting is clearly implicit because otherwise
electors could, e.g., refuse to use provided ballots and
instead text or email their preferences, or, as Mr. Baca
did, “by writing Mr. Kaine’s name on a pen box.” Colo.
Pet. App. 218 (¶ 55). So the Electoral College is a joint
state-federal process, and states have a vital authorized role.
The UFPEA is entirely consistent with the foregoing provisions under the states’ authority to regulate
who may become and be an elector, how electors are

18

selected, and how they cast ballots. The UFPEA permissibly governs the who and how of electors in several
ways:
• Section 3 provides for the designation of elector and
alternate-elector nominees;
• Section 4 requires a faithfulness pledge as a condition of being an elector;
• Section 5 provides that the certificate of ascertainment state that the electors will serve unless a vacancy occurs, in which case a replacement will fill
it and an amended certificate will follow;
• Section 6 governs filling elector vacancies;
• Section 7 governs elector voting and establishes
function-of-law vacancies (to be filled under § 6),
which include a vacancy caused by presenting a
ballot to the presiding official in violation of the
pledge; and
• Section 8 provides for amended certification of the
list of electors to be substituted for the prior certificate.
And the UFPEA permissibly governs the how of casting ballots in several ways:
• Section 2(1) defines “cast” as “accepted . . . in accordance with Section 7(b)”;
• Section 7(a) and (b) distinguish between (i) “mark[ing]” ballots, (ii) “present[ing]” them, and (iii) a ballot’s “accept[ance] as cast”; and
• Under § 7(b), only after an elector presents a ballot
consistent with the pledge and the official examiner
confirms compliance and accepts the ballot as cast
is the ballot actually cast. Presenting a noncompliant ballot does not cast a ballot but rather—by operation of law—immediately removes the former

19

elector and creates a vacancy to be filled by a faithful elector.
The analytical distinction between marking the
ballot, proffering it to the appropriate official, and casting the vote is readily seen in two other voting contexts. First, a voter at the polls receives a paper ballot.20 She goes to a booth and marks the ballot. Then
she goes to the ballot box and casts the ballot. Marking
and casting are distinct acts, both physically and conceptually. Were she to do anything other than deposit
the marked ballot in the ballot box, no ballot would be
cast. And if she deposits in the ballot box a ballot that
is unmarked or improperly marked under governing
law, no vote is cast. Thus, compliance with legal requirements is necessary for a vote to be legally cast.
The second context involves absentee voting.21 If the
ballot is unmarked or improperly marked under governing law or if other legal requirements for absentee
ballot voting are not complied with, no vote is cast.
Thus, marking, submitting for approval, and casting of
a ballot are clearly distinct factually and conceptually.
Casting a ballot and actually voting both require compliance with controlling law.
The UFPEA merely applies these ordinary, practical, and conceptual distinctions to define “cast” as being accepted as legally compliant. It distinguishes (i)
marking a ballot, (ii) proffering it to the presiding offi20

In non-paper-ballot systems, voters still “mark” candidates then “cast” the ballot after reviewing their marks.
21

Both Washington and Colorado offer broad-based voteby-mail processes that resemble the absentee voting process
analyzed here.

20

cial for compliance inspection, and (iii) acceptance of
the ballot as compliant. Only the third step constitutes
casting the ballot. This recognition of the ordinary,
practical, and conceptual voting acts that are also inherent in elector voting allows an automatic-electorremoval provision (§ 7(b)) to prevent a proffered noncompliant ballot from being cast and to substitute a
faithful voter who casts a faithful ballot. Note that the
pledge is to “mark” the ballot as prescribed (§ 4), not to
“cast” it as prescribed. So the presiding official is able
to review the ballot after marking, and a noncompliant
elector is removed for breaking the pledge before any
ballot is “cast.” And the faithless former elector is replaced by an elector who is faithful to the pledge or is
in turn replaced—until compliance with the pledge is
achieved by all electors.
The UFPEA’s approach is a constitutional, lawful,
practical, and elegant solution to the possibility of a
faithless elector by preventing faithless votes from being cast. It does not impose civil or criminal penalties
on electors after the fact, which may not be effective,
by avoiding the possibility of electors accepting the
consequences (e.g., a $1,000 civil penalty in Washington) and casting a faithless vote.22

22

The ULC does not address here Colorado’s Tenth
Amendment argument (Colo. Br. 43-47), since the ULC
deems UFPEA-type provisions fully consistent with Article
II, § 1, cls. 2-3, the Twelfth Amendment, and 3 U.S.C.
Chapter 1. The ULC agrees that “[t]he public’s post-enactment understanding and longstanding historical practice
confirm that States may control their electors” (Colo. Br.
33), and the UFPEA is part of that understanding and practice.

21

The UFPEA is also consistent with the rationale of
Ray, 343 U.S. 214, which upheld a provision requiring
electors to pledge “aid and support” for a political
party’s nominee, id. at 215. Against an argument for
absolute liberty of choice for electors, this Court held
that there is “no federal constitutional objection” where
a system of choosing electors “fix[es] the qualifications
for the candidates” because the Twelfth Amendment
does not mandate such “absolute freedom” for electors.”
Id. at 231. The Ray dissent advocated for such complete liberty of choice, but that was of course in dissent.
Id. at 232 (Jackson, J., dissenting). As the Colorado
Brief elaborates, the Twelfth Amendment does not
grant electors such absolute freedom. Colo. Br. 29-33.
Moreover, Ray is consistent with the view that regulating electors up until their ballot is formally cast under
state law is a state function, not a federal function, so
that states are free to regulate within their own sphere
up until that time, as allowed by the governing constitutional and statutory provisions.
Upholding the Tenth Circuit’s decision would be
tantamount to ignoring the stare decisis effect of Ray,
without the justification this Court has stated is critical to doing so. Stare decisis “promotes the evenhanded, predictable, and consistent development of
legal principles, fosters reliance on judicial decisions,
and contributes to the actual and perceived integrity of
the judicial process.” Payne v. Tennessee, 501 U.S. 808,
827 (1991). This Court has approached reconsideration
of precedential holdings with caution, generally requiring both a determination that the previous case was
wrongly decided and that other “strong grounds” exist
that support its reconsideration. Janus v. AFSCME,
Council 31, 138 S. Ct. 2448, 2478-79 (2018). Some of

22

these other “strong grounds” factors to be considered
include: the quality of the precedent’s reasoning, the
workability of the rule it established, its consistency
with other related decisions, developments since the
decision was handed down, and reliance on the decision. Id. Even Court opinions that don’t support a
“strong grounds” factors analysis before reconsideration of precedent require first that the precedential
holding be “demonstrably erroneous.” Gamble v.
United States, 139 S. Ct. 1960, 1989 (2019) (Thomas,
J., concurring). Neither the “strong grounds” factors
analysis nor the “demonstrably erroneous” standard
applies to Ray.
This Court has cited Ray seven times—not once
suggesting that it was wrongly reasoned, let alone demonstrably erroneous. See generally, Clingman v. Beaver, 544 U.S. 581, 594-95 (2005); Cal. Democratic Party
v. Jones, 530 U.S. 567, 576 n.7 (2000); Democratic
Party of United States v. Wisconsin, 450 U.S. 107, 122
(1981); Cousins v. Wigoda, 419 U.S. 477, 489 (1975);
Republican State Cent. Comm. v. Ripon Soc’y, 409 U.S.
1222, 1226-27 (1972); O’Brien v. Brown, 409 U.S. 1, 4-5
(1972); Oregon v. Mitchell, 400 U.S. 112, 211 n.89
(1970). In all seven cases citing Ray, this Court ruled
in a manner consistent with Ray. See, e.g., Democratic
Party of United States, 450 U.S. at 122 (holding political parties can protect themselves from ‘intrusion by
those with adverse political principles’). Both Colorado’s statutory scheme and the UFPEA rely on Ray’s
precedential effect, which would be lost if this Court
upholds the Tenth Circuit’s decision.
The Tenth Circuit adopted the Ray dissent’s rationale, instead of the Ray controlling rationale and interpreted the Twelfth Amendment as mandating absolute

23

elector discretion. This reasoning jeopardizes all efforts
to rein in faithless electors, including the UFPEA’s
solution to the faithless-elector problem. Further, the
Tenth Circuit decision even casts doubt on the ballot
designs used by many states because (i) many make no
mention of electors, (ii) some do so only in small print,
and (iii) no choice of individual electors in a slate is
possible—which makes the ballots deceitful unless
electors are faithful. Most voters do not contemplate
that they are voting for electors instead of candidates
for office. If the results of a November election were
overturned some forty days later, based on what many
voters would deem deception, “the potential is great for
harm to our democracy,” as the UFPEA’s Prefatory
Note explains. ULC App. 9a.
This Court should hold that Colorado’s removaland-replacement system, which is similar in application to the UFPEA, is constitutional.

III.
Important Principles of Individual
Political Empowerment and Federalism
Favor the Constitutionality of Colorado’s
Faithless-Elector Statute.
Colorado’s law is constitutional. By reversing the
Tenth Circuit decision and holding Colorado’s faithlesselector law constitutional, this Court can settle critical
issues of law before they arise in a crisis. In particular,
the case implicates states’ interests in bolstering individual political empowerment and protecting popular
election results from manipulation. Obtaining clarity
on these issues is vital.
Individual political empowerment is at the core of
our nation’s founding—as “no taxation without repre-

24

sentation” was a recognition that the governed control,
via representation, those charged with governance. See
Patrick Henry, The Virginia Stamp Act Resolutions,
House of Burgesses, May 30, 1765. The mid-twentiethcentury civil-rights movement illustrates the resulting
political division when many reasonably believe their
votes for representatives are ignored or they are disenfranchised by those in power. The UFPEA and similar
statutes represent efforts to bolster individual political
empowerment and the sense that presidential elections
are conducted in an orderly, fair manner, thus yielding
“greater stability of and confidence in our government.”
Beverly J. Ross and William Josephson, The Electoral
College and the Popular Vote, 12 J. L. & Politics 665,
747 (1996).
Ross and Josephson contend that states have the
constitutional power to enact statutes to bind electors.
It is only if they fail to do so that the elector discretion
is unfettered. “[A]s we read Ray v. Blair, the Court was
correct. The state’s constitutional power to appoint
electors would appear to include the power to bind
them. However, absent such binding, electors retain
their constitutional discretion.” Id. at 678. As this brief
explains in Part II, the states have the “authority to
regulate who may become and be an elector, how electors are selected, and how they cast ballots.” See supra
at 16. Where states have acted to adopt the UFPEA or
a similar statute to bind electors to vote as they
pledged to do, the statutes are a constitutional exercise
of the authority given the states under Article II, § 1,
cls. 2-3 and 3 U.S.C. Chapter 1.
It is true that historical evidence suggests that electors were originally charged with “independence” and
expected to debate and consider their votes within the

25

context of that debate. See The Federalist No. 10
(James Madison). But less than a decade after the Constitution was originally adopted and ratified, on the
heels of the contentious Presidential election of 1800
and the rise of the political party system, the political
reality had shifted enough that the Twelfth Amendment was ratified in 1804.23
With the passage of the Twelfth Amendment, it is
evident that the elector’s “independence” was greatly
impacted by the systemic political changes that came
in the founding era, immediately following George
Washington’s decision to not seek reelection after his
second term. See Keith E. Whittington, Originalism,
Constitutional Construction, and the Problem of Faithless Electors, 59 Ariz. L. Rev. 904, 911 (2017). Put another way, the “trust that was originally conferred
upon the electors by the people, to express their will by
the selections they make, has, over these many years,
ripened into a bounden duty—as binding upon them as
if it were written into the organic law.” Ross and
Josephson, supra, at 699 (quoting Thomas v. Cohen,
146 Misc. 836, 841 (Sup. Ct. 1933)). Reversing the
Tenth Circuit’s decision will not only honor the text
and structure of the Constitution, but will take into
account relevant historical, systemic changes that occurred in our body politic, within a timeframe that can
legitimately be considered the founding era.
If the Court upholds the Tenth Circuit’s decision,
subsequent challenges regarding the constitutionality
of ballots making little or no mention of electors are
23

See https://www.archives.gov/historical-docs/todaysdoc/index.html?dod-date=1209 (National Archives information on Twelfth Amendment).

26

almost certain to follow. See supra at 22. During times
of high political polarization, the Electoral College is
the subject of greater debate and scrutiny, especially
when no party achieves sufficient electoral dominance
to decrease the likelihood of close electoral votes. Whittington, supra, at 904. Presently, key “battleground”
states can lead to a tie or a razor-thin electoral victory.
Close votes might increase “as technology and increasing campaign sophistication heighten the competitiveness of presidential elections.” Memorandum from
Robert Bennett, UFPEA Reporter, to the NCCUSL
Drafting Committee on Presidential Electors Act
(March 2009).24 With close votes, “there is ample reason to think that parties and candidates will be
tempted to court faithlessness.” Id.25 Discussed in the
Prefatory Note of the UFPEA are instances in which
faithless electors were courted, anticipated, and
planned for. ULC App. 6a. Indeed, “one significant motivation for states to adopt [a faithless-voter act is] to
avoid the political havoc that would ensue from more
deeply embroiling the courts in a controversial election
where a candidate might attempt to swing an election
with the defection of a faithless elector.” Jesse O. Hale
Jr., Reining In Renegade Presidential Electors: A Uniform State Approach, Baker Ctr. J. of Applied Pub. Pol24

Available at https://www.uniformlaws.org/HigherLogic/System/DownloadDocumentFile.ashx?DocumentFileKey=8a4d3ae7-90eb-d67f-4c7c0ee622724148&forceDialog=0.
25

From 1808 through 2004, there were nineteen faithless electors. In the 2016 election alone, there were seven.
See https://www.wsj.com/graphics/electoral-college-2016/.

27

icy, 2010, at 8.26 Upholding the constitutionality of
faithless elector laws now means that the critical issue
of the extent to which states can bolster individual political empowerment will be decided outside of the heat
of a close presidential election.
Moreover, federalism and the decentralization of
presidential elections protect our presidential election
system from interference. See Eric Manpearl, Securing
U.S. Election Systems: Designating U.S. Election Systems as Critical Infrastructure and Instituting Election
Security Reforms, 24 B.U. J. Sci. & Tech. L. 168, 182
(2018). Under the UFPEA or the Colorado statute at
issue here, changing the actual outcome of the election
would require somehow changing the number of votes
cast for a particular candidate in particular precincts
in particular states, which use different types of voting
machines and computer systems. See id. But if faithless electors are allowed, one need only “tamper” with
a few electors in strategic states. Holding faithlesselector laws unconstitutional would vitiate a key
method states use to protect the integrity of presidential elections and our democracy.

26

Mr. Hale (Tennessee) is also a ULC Commissioner
and a member of the Drafting Committee. Article available
at http://trace.tennessee.edu/utk_bakecentpubs/3.

28

Conclusion
This Court should reverse the Tenth Circuit’s decision by finding Colorado’s faithless elector law constitutional.
Respectfully submitted,
Carl H. Lisman
James Bopp, Jr.
84 Pine St.
jboppjr@aol.com
Burlington, VT 05401
Counsel of Record
Richard E. Coleson
Daniel Robbins
rcoleson@bopplaw.com
Bldg E
Melena S. Siebert
15301 Ventura Blvd.
msiebert@bopplaw.com
Sherman Oaks, CA 91403
THE BOPP LAW FIRM, PC
Susan Kelly Nichols
The National Building
3217 Northampton St.
1 South Sixth Street
Raleigh, NC 27609
Terre Haute, IN 47807
Peter F. Langrock
812/232-2434 telephone
111 South Pleasant Street 812/235-3685 facsimile
P.O. Drawer 351
Counsel for Amicus CuMiddlebury, VT 05753-0351 riae
Timothy J. Berg
Fennemore Craig, P.C.
2394 East Camelback Rd.,
Ste. 600
Phoenix, AZ 85016
Of Counsel for Amicus Curiae

